BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
Senators Whitehouse, Cardin, Blumenthal, Warren,
Markey, and Van Hollen in Support of Respondent in
19-1189, BP p.l.c., et al. v. Mayor and City Council of
Baltimore, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 23rd day of December, 2020:
Kannan K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanm ugam@paulweiss.com

Counsel for Petitioners
Victor M. Sher
Sher Edling LLP
100 Montgomery St.
Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Gerson H. Smoger
Counsel of Record
Smoger & Associates
13250 Branch View Lane
Dallas, TX 75234
(972) 243-5297
gerson@texasinjurylaw .com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 23, 2020.

vf.;;

Donna J.
f
1)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
,-:ehr: 1a1 )' 14, 2023

